                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF WESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A-04030012                                                                       Page 1 of 1



          We received an allegation that the subject (the co-PI) on the NSF proposal' listed in his
          Biosketch a manuscript as submitted to a ~ o u r n athat
                                                               l ~ had not been submitted.

         We wrote to the subject, who explained he had not submitted the manuscript in question. He
         explained that at the time he was preparjng the NSF proposal heivas also working on the
         manuscript. He said his dissertation advisor, the PI on the NSF proposal, brought this fact to his
         attention when the advisor reviewed the draft of the NSF proposal. The advisor had told him to
         change the manuscript listing to "in preparation for submission." However, the subject explained
         that because he was preparing other proposals for submission to other funding organizations at
         the same time, he changed it in these other proposals, but failed to change it in the NSF proposal.
         He said he had not intended to misrepresent this information and apologized. He further
         admitted to making this same mistake with a second manuscript in the Biosketch in the NSF
         proposal.3 He said that, similarly, his advisor had told him to change this one as well, which he,
         likewise, failed to do in the NSF proposal.

          The subject's advisor wrote on his behalf explaining that the subject was a young scientist who
          the advisor had talked to about this oversight of the manuscripts. The advisor said this was an
          inadvertent error. According to the advisor, the subject and advisor have held several meetings
          about this matter since the subject received the letter asking for an explanation. Further, with the
          advisor's assistance, the subject has updated his curriculum vitae.

         We determined that this was a departure from accepted practice, but, not significant enough to
         warrant further actions. We believe the fact that the subject was an inexperienced graduate
         student and the fact that the subject's advisor personally intervened about this matter to provide
         better training about these practices are mitigating factors in this case. We wrote to the subject
         explaining the importance of careful review of all the materials presented in any proposal he
         submits in the future.

         This case is closed and no further action will be taken.




NSF 01G Form 2 (1 1/02)
